 •





o
                                   AUDIT REPORT ON 


                                8(a) PROGRAM CONTINUING 


                                    ELIGIBILITY REVIEWS 


                             AUDIT REPORT NO.4-3-H-006-021 


                                    September 30, 1994 





      This report may contain proprietary information subject to the provisions of 1 8
      USC 1905. Do not release to the public or another agency without permission of
      the Office of Inspector General.
                                                                                          '1


                        u.s.   SMALL BUSINESS ADMINISTRATION
                               OFFICE OF INSPECTOR GENERAL 

                                   Washington, D.C. 20416 





                                                                 AUDIT
                                                     I          REPORT                I
                                                         Issue Date:
                                                         September 30, 1994
                                                         Number: 4-3-H-006-021


TO:          Herbert L. Mitchell, Associate Administrator
               for Minority Enterprise Development


             tr.j/)k~1rrl
FROM:        ~::;r L.McClintock, Assistant Inspector General
               for Auditing

SUBJECT:     Audit Report on 8(a) Program Continuing Eligibility Reviews


      This is our audit report on 8(a) program continuing eligibility reviews. The
summary section on page ii of the report provides a synopsis of the audit findings.
The report contains 5 findings and 13 recommendations.

       The findings included in this report are the conclusion of the Auditing
Division based on the auditors' testing of program operations. The findings and
recommendations are subject to review and implementation of corrective action by
your office following existing Agency procedures for audit follow-up and resolution.

       Please provide us with your management decisions for the recommendations
within 30 days. Record your management decisions on the attached SBA Form
1824, "Recommendation Action Sheet, n and show either your proposed corrective
actions and target dates for completion., or an explanation of your disagreement
with our recommendations.

       Should you or your staff have any questions, please contact Dale C.
Williams, Deputy Assistant Inspector General for Auditing, Headquarters
Operations, at (202) 205-7204.
o

                                         SUMM ARY

             We completed an audit of 8(a) program procedures for SBA's continuing
     eligibility reviews. The objective of the audit was to evaluate the adequacy of
     procedures for assuring 8(a) program participants meet continuing eligibility
     requirements.

            Our audit concluded that enhancements to the continuing eligibility review
     process are needed. Participants remain in the program even though they have
     accumulated substantial wealth or have overcome impediments to obtaining access
     to financing, markets and resources. Permitting wealthy individuals to remain in
     the 8(a) program is contrary to the goals of the program, reduces the opportunities
     available to those who are disadvantaged and undermines public support for the
     program. Specifically, we noted the following:

           •	     Individuals that had overcome their economic disadvantage retained
                  8(a) eligibility because they understated their personal net worth and

o	                Business Opportunity Specialists (BOS) made errors in calculating the
                  individuals' personal net worth.

           •	     Participants with substantial income remained in the 8(a) program
                  because personal annual income was not considered when economic
                  disadvantage assessments were made.

           •	     Continuing eligibility reviews did not include comparisons of 8(a)
                  concerns to other concerns in the same or similar lines of businesses
                  that were not owned and controlled by socially and economically
                  individuals. This allowed participants to continue in the 8(a) program
                  although the strong financial condition of their firms .should no longer
                  have qualified them as economically disadvantaged.

           •	     Wealthy individuals continued to be eligible for the 8(a) program
                  because the equity in their 8(a) firms and primary residences and the
                  net worth of their spouses was not a factor in determining whether
                  they remained economically disadvantaged.

           •	     Annual financial statements were not always submitted or prepared in
                  accordance with 8(a) program regulations.


o          •      The form 8(a) participants are required to use to report their personal
                  net worth was not structured in a way which simplified economic
                  disadvantage determinations.
       •     Data used to conduct 8(a) program continuing eligibility reviews was
             not always compatible and timely.                                           o
       •	    firms in the 8(a) program can exercise significant control over other
             8(a) firms and they can subcontract with the other 8(a) firms to work
             on 8(a) contracts in which they have outgrown the Standard Industrial
             Classification (SIC) code.

      Our report includes recommendations to improve the 8(a) program
continuing eligibility .review process and correct the conditions cited in the report.
We recommend that the Associate Administrator for Minority Enterprise
Development:

       •	    establish criteria for requiring more successful 8(a) program
             participants to annually submit personal financial statements that are
             reviewed or compiled by an independent public accountant;

       •	    require 8(a) program participants to annually submit personal tax
             returns or file Form 8821 with the IRS authorizing SBA to receive their
             personal tax return information;

       •	    direct SBA district offices to provide training to BOSs on personal net
             worth determinations and to place increased emphasis on personal net
             worth determinations during 8(a) program continuing eligibility
             reviews;

       •	    establish guidelines for determining that 8(a) participants should no
             longer be considered economically disadvantaged based on unusually
             large amounts of funds withdrawn from their firms;

       •	    establish procedures and standards for comparing the financial
             condition of 8(a) firms to similar firms not in the program to identify
             participants that should be graduated from the 8(a) program because
             they are no longer economically disadvantaged;

       •	    establish procedures for determining whether 8(a) participants should
             no longer be considered economically disadvantaged based on their
             ownership interest in their 8(a) firms, the equity and market value of
             their primary residences, and the net worth of their spouses;

       •	    instruct SBA district offices to place increased emphasis on 8(a)
             program participants' submission and preparation of financial
             statements;


                                           iii
o

           •	     develop a standard form for reporting the adjusted personal net worth
                  of 8(a) participants;

           •	     realign 8(a) firms' program years with their fiscal years and the tax
                  years of the disadvantaged owners;

           •	     require 8(a) firms to submit annual financial statements (audited,
                  reviewed, or compiled) within 90-days of their fiscal year end;

           •	     require that disadvantaged owners and firms participating in the 8.(a)
                  program submit their personal and business tax returns to SBA by the
                  15th day of the 4th month after the respective tax year ends;

           •      require that disadvantaged owners' firms participating in the 8(a)
                  program and ass·ociates of the owner(s) or firm be limited in their

o                 equity ownership interests in other 8(a) firms to no more than a
                  combined 10 percent; and

           •	     require that revenue earned from subcontracting on noncompetitive
                  8(a) contracts be classified as 8(a) revenue.

            On June 27, 1994, we discussed the results of our audit with SBA Minority
      Enterprise Development officials. On August 22, 1994, we received written
      comments from the Associate Administrator for Minority Enterprise Development.
     ·The Associate Administrator for Minority Enterprise Development generally agreed
      with our findings, conclusions, and recommendations. We have evaluated and
      considered his comments in finalizing our report. The written comments are
      included in the report under the results of Audit.

            The findings included in this report are the conclusion of the Auditing
     Division based on the auditt>rs testing of the auditee's operations. The findings
     and recommendations are subject to review, management decision, and corrective
     action by your office in accordance with existing Agency procedures for audit
     follow-up and resolution.




o

                                               .. , 

                              AUDIT REPORT ON 

                         8(A) PROGRAM CONTINUING 

                             ELIGIBILITY REVIEWS 
                             o

                               Table of Contents

                                                                      PAGE

MANAGEMENT MEMORANDUM

SUMMARY                                                                  ii

INTRODUCTION

   A. 	 Background                                                       1

   B.   Objectives and Scope                                             2

   C.   Follow-up on Prior Audits                                        2

RESULTS OF AUDIT

   A.   Findings and Recommendations

        1 . 	 Understated Personal Financial Statements (Net Worth)
              Go Undetected                                              3
                                                                               o
        2. 	 Participants with High Personal Income Remain in the
             Program                                                     7

        3. 	 8(a) Concerns Larger And More Profitable Than Non-8(a}
             Concerns Are still Receiving 8(a) Assistance               10

        4. 	 Exclusions From Personal Net Worth Calculations
             Disguise Economic Success                                  12 


        5.   Other Observations                                         18 


APPENDIX

   A.   Report Distribution                                             24




                                       v
                                 INTRODUCTION 


A.   Background

    The 8(a) program was created to assist small businesses owned and controlled
by socially and economically disadvantaged individuals to develop into viable
competitors in the commercial marketplace. Under the program., SBA, as prime
contractor, enters into contracts with other Federal agencies and subcontracts with
prqgram participants to perform the work. Program participants receive substantial
benefits including sole-source contracts, business development grants, low interest
loans, and free management ~onsulting services.

     The important purpose of the 8(a) program is severely undermined when
individuals who are not disadvantaged are permitted to participate in the program.
Participation by non-disadvantaged individuals reduces the opportunities available
to those who are disadvantaged, diverts the energy and efforts of SBA, and could
undermine public support for the program. Title 13 of the Code of Federal
Regulations (CFR), Section 124.106 states that the 8(a) program is not intended to
assist concerns owned and controlled by socially disadvantaged individuals who
have accumulated substantial wealth or who have overcome impediments to
obtaining access to financing, markets and resources.

     Participation in the 8(a) program is limited to small businesses at least 51
percent owned and controlled by individuals who have been identified as socially
and economically disadvantaged. Title 13 CFR § 124.106 states, for 8(a) program
p~rposes, economically disadvantaged individuals are socially disadvantaged
individuals whose ability .to compete in the free enterprise system has been
impaired due to diminished capital and credit opportunities, as compared to others
in similar lines of businesses and competitive market areas who are not socially
disadvantaged. Title 13 CFR § 124.106 further requires SBA to consider the
personal financial condition of the individual(s) claiming disadvantaged status, the
financial condition of the concern, and the concern's access to capital, credit and
markets in determining economic disadvantage for purposes of 8(a) program
eligibility.

     SBA has established thresholds of personal net worth for the purpose of
determining whether individuals are economically disadvantaged. An individual
whose personal net worth exceeds $250,000 is not considered economically
disadvantaged fGr purposes of initial program eligibility. Upon admittance to the
8(a) program, individual personal net worth can not exceed $500,000 in the
developmental stage (first 4 years) and $750,000 in the transitional stage (last 5
years) of the program. Whenever SBA calculates the personal net worth of an
individual claiming disadvantaged status for purposes of the 8(a) program, by
statute, the personal net worth of the individual's spouse, the individual's

                                          1
ownership interest in the 8(a) concern, and equity in his or her personal residence
not attributable to excessive withdrawals from the concern are excluded from the
calculation. For concerns whose eligibility is based on multiple individuals claiming
disadvantaged status, each individual is subject to the personal net worth
thresholds on an individual basis.

    The Small Business Act, as amended, requires SBA to conduct annual reviews
of 8(a) participants to determine whether they continue to meet all eligibility
requirements of the program. These determinations are made in conjunction with
the annual review of the participant's program year.

B.   Objectives and Scope

    The objective of our audit was to evaluate the adequacy of procedures for
assuring 8(a) program participants meet continuing eligibility requirements. Our
audit included reviewing pertinent laws, regulations, and procedures related to
continuing eligibiljty reviews of 8(a) participants.

     To accomplish out audit objective, we selected the five SBA district offices
that serviced the greatest number of active 8(a) firms that had received total 8(a)
contracts valued over $10 million. We further selected 10 firms from each of the
five districts for review. The firms selected were among the 20 firms in each
district that had received the greatest total dollar value of 8(a) contracts and were
not due to graduate from the 8(a) program prior to January 1, 1994.
Consequently, the results of our audit as discussed in th~ body of the report should
not be taken as indic~tive c;>f the entire universe because of our non-statistical
sampling methodology.

     We reviewed corporate and personal financial statements, annual updates and
reviews, and corporate and personal tax returns of selected 8(a) participants.
Discussions were held with Business Opportunity Specialists at the district offices,
8(a) participants, and independent public accountants employed by the 8(a)
participants.

    The audit covered 8(a) participants that were active in the program as of
December 31, 1993. We conducted the audit between February 1 993 and June
1994. On-site work was conducted at the Washington, Los Angeles, Richmond,
Columbus, and Albuquerque District Offices. The audit was performed in '
accordance with government auditing standards.

C.   Follow-up on Prior Audits

    No prior audits of 8(a) program continuing eligibility reviews have been
performed by SBA.


                                          2

o

                                      RESULTS OF AUDIT


     A.   Findings and Recommendations

     Finding 1 	    Understated Personal Financial Statements (Net Worth) Go
                    Undetected

          Personal net worth was understated by some 8(a) program participants and
     incorrectly calculated by some Business Opportunity Specialists (BOS). This
     allowed seven participants to retain their 8(a) eligibility even though their net worth
     exceeded the thresholds for claiming economic disadvantage. Consequently,
     individuals that were truly economically disadvantaged may have been deprived of
     opportunities for 8(a) assistance. This condition occurred because the
     determination of personal net worth is a self certification process with little
     validation and emphasis.


o	        Title 	1 3 of the Code of Federal Regulations (CFR), Section 124.111, sets
     forth personal net worth limits for 8(a) program continuing eligibility purposes.
     Participants in the developmental and transitional stages of the program may have
     a personal net worth up to $500,000 and $750,000 respectively. In addition,
     each of the individuals for whom 8(a) eligibility is based upon must submit personal
     financial statements detailing their personal net worth as part of an annual review.

          In our review of continuing eligibility assessments of 50 8(a) concerns, we
     found seven participants retained their 8(a) eligibility even though their net worth
     after exclusions exceeded the thresholds for claiming economic disadvantage.
     Although all seven participants' reported personal net worth fell within the limits
     for retaining 8(a) eligibility, they were no longer eligible to claim economic
     disadvantage because they understated their personal net worth or the Business
     Opportunity Specialists erred in making the personal net worth determination. We
     found participants understated their personal net worth after exclusions by as
     much as $1.25 million and BOSs made errors totalling up to $259,000. For
     example:

          •	   One 8(a) participant reported a joint net worth before exclusions of
               $530,724 when it was in fact $11.3 million. We found the $10.8 million
               difference was attributable to the participant not reporting the equity in
               the 8(a) firm and personal residence of $9 million and $517,000,

o	             respectively. Moreover, he overstated liabilities and assets by $2 mil1ion
               and $722,973, respectively. The 8(a) participant's reported personal net
         worth was $304,417 after excluding his spouse's personal net
         worth and the equity he had in the 8(a) firm and his primary
         residence. We found that his actual personal net worth after
         exclusions was $1.7 million because his share of the reported
         assets and liabilities were overstated by $701,623 and $2
         million respectively, and we determined that $166,000 in
         withdrawals from the 8(a) firm was excessive and should be
         included as part of the participant's personal net worth.

    •	   Another 8(a) participant reported that his personal net worth before
         exclusions was $559,000. We found that the BOS used the reported
         amount without making any adjustment~ for the participant's business
         and home equity in determining whether the participant was economically
         disadvantaged because the reported amount was below the eligibility
         threshold. However, we found the personal financial statement
         submitted by the participant contained errors totalling $259,000 that
         increased the participant's personal net worth over the eligibility
         threshold: (1) the sum of total assets was $25,000 more than the
         amount shown, (2) the sum of stocks and bonds was $10,000 more
         than the amount shown; (3) the sum of real estate was $35,000 more
         than the amount shown; and (4) a $189,000 mortgage on the
         participant's residence was shown as a liability although there was no
         corresponding asset shown for the primary residence. The 8(a)
         participant's actual personal worth was $818,000 after making
         adjustments for the errors and excluding the equity he had in the 8(a)
         firm and his primary residence.

    At present, personal net worth is not adequately validated and   emphasized
during 8(a) program continuing eligibility reviews. We found BOSs    did not always
have the skills and time needed to adequately analyze personal net   worth.
Consequently, reported personal net worth was generally accepted     without
question. For example:

    •	   One of the 50 8(a) participants in our review submitted a personal
         financial statement that represented the joint assets and liabilities of the
         participant and his wife. We found that the BOS responsible for
         determining whether the participant continued to be economically
         disadvantaged was unaware that a joint statement had been submitted.
         As a result, the determination was based on joint net worth rather than
         the participant's personal net worth as required. In addition, we found




                                          4

o

               the BOS was unaware that the participant's reported joint
               assets were understated by $954,943. We determined that the
               participant failed to report the following assets as a result of
               our review of the participant's personal tax returns, business
               tax returns, and business financial statements:

               IRA or Other Retirement Accounts $396,948
               Mutual Funds 	                   $163,855
               Personal Loans to Individuals    $394,140

                    Total 	                          $954,943

         The participant's actual personal net worth was $759,399 after inclusion of
     the participant's share of the omitted assets. Consequently, the participant was
     no longer eligible to continue in the 8(a) program because the personal net worth
     threshold had been exceeded.


o	        Although 	all five of the district offices in our review required 8(a) participants
     to submit business tax returns and financial statements, only one required
     submission of personal tax returns. Discovery of understated assets, such as
     those described in the above example, is highly unlikely if 8(a) participants'
     personal tax returns are not available for review. Alternatively, submission of
     personal tax returns would not be necessary if 8(a) participants authorize the
     Internal Revenue Service (IRS) to release their personal tax return information to
     SBA. This can be accomplished by the 8(a) participants filing Form 8821, Tax
     Information Authorization, with the IRS. The latter alternative would reduce the
     paperwork burden to 8(a) participants and ensure that the personal tax return
     information made available for SaA review matches what was submitted to the
     IRS. Unless personal net worth determinations receive adequate validation and
     emphasis, participants may be able to remain in the 8(a) program even though they
     no longer meet the criteria for claiming economic disadvantage.

     Recommendations

        We recommend the Associate Administrator for Minority Enterprise
     Development:

         1A. 	 establish criteria (e.g., based on salaries in excess of $500,000,
               high equity in business, reported net worth, sales, etc.) for

o	             requiring 8(a) program participants to annually submit personal
               financial statements that are reviewed or compiled by an
               independent public accountant.
    1B. 	 require 8(a) program participants to annually submit personal 

          tax returns or file Form 8821 with the IRS authorizing SBA to 

          receive their personal tax return information. 


    1 C. 	 direct SBA district offices to provide training to BOSs on 

           personal net worth determinations and to place increased 

           emphasis on personal net worth determinations during 8(a) 

           program continuing eligibility reviews. 



SBA 	Management's Response

     The Associate Administrator for Minority Enterprise Development provided the
following comments:

    1A. 	 nCriteria will be established to requir£! reviewed or compiled personal
          financial statements prepared by an independent public accountants for
          firms with certain levels of 8(a) revenue. n

    1B.    nWe agree and this requirement will be mandatory with the annual
          review. n

    1 C. 	 nWe agree with the recommendation and training will be conducted in FY
          '95.   n



Evaluation of Management Response

  . In our draft recommendation, we suggested the personal financial statements
be audited, reviewed or compiled by an independent public accountant. Although
the Associate Administrator for Minority Enterprise Development agreed that
criteria should be established for reviewed or compiled personal financial
statements, he did not believe audited personal financial statements should be
required. In our opinion, audited personal financial statements would provide the
greatest"assurance of accuracy. However, we recognize that the cost may
outweigh the benefits. Therefore, we have revised our final recommendation
accordingly, and believe the planned actions shoyld result in the submission of
more accurate personal financial statements. Actions planned to implement
recommendations 1 Band 1 C by the Associate Administrator for Minority Enterprise
are responsive.




                                          6

o

     Finding 2             Participants with High Personal Income Remain in the Program

          Owners of 8(a) concerns receiving large salaries and bonuses continue to be
     classified as economically disadvantaged and can remain in the program. At least
     five of the owners included in our review earned over $1 million in compensation
     over a two-year·period. The personal income of individuals claiming disadvantaged
     status was not considered during 8(ar program continuing eligibility reviews.
     Although regulations governing 8(a) program continuing eligibility require
     consideration of personal income when assessing economic disadvantage, no
     specific income limits have been established to simplify the process. As a result,
     individuals with substantial income remained in the program and economically
     disadvantaged individuals were deprived of 8(a) assistance.

          Title 13 CFR § 124.106, requires consideration of the personal financial
     condition of individuals claiming disadvantaged status when SBA assesses
     economic disadvantage for 8(a) program continuing eligibility purposes. One of the

o
   specific factors to be considered in making the assessment is the participants'
     personal income for at least the past two years.

         In our review of continuing eligibility assessments of 50 8(a) concerns, we
     found the personal income of the individuals claiming disadvantaged status was
     not considered when determining whether individuals continued to be economically
     disadvantaged. The 50 8(a) concern owners' compensation ranged from $0 to
     $2.5 million as shown below:

           1991 and 1992 Compensation 1                                          Number of Owners

           $1,000,000          to $2,500,000                                                 5
           $ 750,000           to $ 999,999                                                  7
           $ 500,000           to $ 749,999                                                  5
           $ 200,000           to $ 499,999                                                19
           $       0           to$ 199,999                                                 14


     For example:

           •	      One of the 50 owners in our review received salaries and bonuses from
                   his 8(a) firm totalling $1,494,112 and $1,022,111 for 1992 and 1991

o
                 respectively. Although the 8(a) firm was an S-Corporation that showed a
                   total profit of $1,460,000 for 1992 and 1991, there was no taxable


                1 Compensation includes the owners' salaries, bonuses, and distributions from the 8(a) concems less any
     distributions made to pay taxes attnbutable to S-Corporations.
         impact on the owner because the carryover of prior period
         losses resulted in offsetting the profits. Accordingly, the owner
         did not receive any distributions from the firm to pay for taxes
         during 1992 and 1991. In addition, the 8(a) owner's spouse
         had non-8(a) compensation of $20,356 and $12,265 for 1992
         and 1993, respectively. However, their December 31, 1992,
         reported joint net worth was only $84,500 after excluding their
         equity in the 8{a) firm and their residence. We estimated that
         the owner and his spouse should have realized a net increase in
         their joint net worth of about $1..5 million for the two year
         period ended December 31, 1992. We asked the 8(a} owner
         for an explanation as to why his reported net worth appeared
         so low~ He explained that he was fully aware of the net worth
         limitations of the 8(a) program and he doubted that anyone in
         the program would be foolish enough to exceed the net worth
         thresholds. He further explained that his standard of living was
         very high and his monthly personal expenditures were around 

         $45,000. 


    •    Another owner in our review received 1992 and 1991 salaries and
         bonuses of $1,105,030 and $1,173,782, respectively from his 8(a) firm.
         In addition, the owner received a $2,239,514 distribution from the firm
         in 1 992 to pay taxes attributable to the S-Corporation status of the firm.
         The owner did not receive any distributions prior to 1992 because the
         firm did not become an S-Corporation until 1992. The owner's spouse
         also received compensation of $91,278 and $439,250 from the 8(a) firm
                                                                                       o
         for 1992 and 1991, respectively.

    •	   One other owner in our review received salaries and bonuses totalling 

         $824,968 and $720,098 for 1992 and 1991, respectively, from his 8(a) 

         firm. The owner also received distributions of $915,416 and $495,753 

         dl,lring 1992 and 1991, respectively, of which $256,343 and $282,866 

         was distributed to pay taxes attributable to the S-Corporation status of 

         the firm. In addition, the owner's spouse received $56,160 in 

         compensation from the 8(a) firm in 1992 and in 1991. 


     In our opinion, owners who receive high annual compensation should be found
ineligible for continued participation in the 8(a) program based on their
compensation. For example, In 1990, only 2.8 percent of all tax returns filed in
the United States had an adjusted gross income of $100,000 or more and only .2
percent had an adjusted gross income of $500,000 or more. In our opinion,
individuals whose compensation over a two year period is greater than an SBA
determined level of excessive compensation (after-excluding amounts distributed to
pay taxes attributable to S-Corporations) should no longer be considered


                                         8

o

     economically disadvantaged and should be graduated from the 8(a) program. In
     determining compensation, SBA should consider an amount that is reasonable for
     the average small business and a salary that is' not excessive in comparison with
     the population of the United States.

     Recommendation

         2A. 	 We recommend the Associate Administrator for Minority 

               Enterprise Development establish guidelines for determining that 

               8(a) participants should no longer be considered economically 

               disadvantaged based on unusually large amounts of funds 

               withdrawn from their firms. 


     SBA Management's Response

          The Associate Administrator for Minority Enterprise Development provided the
     following comment:

o
       "We do not agree that there should be a specific personal income limit.
         However, consistent with the Business Opportunity Reform Act Conference
         Report, we plan to address the issue of excessive withdrawals from the firm
         (including salary payment). The BOS will consider the impact of this
         withdrawal in terms of: (1) the firm's ability to access capital as well as (2)
         whether the withdrawal is determined to be detrimental to the development of
         the firm. Should it be decided that a firm has access to capital, the firm will be
         considered for graduation. Also, a determination that detrimental excessive
         withdrawals were made could result in the initiation of termination
         proceedings. "

     Evaluation of Management Response

          After further evaluation of the legislative history of the Business Opportunity
     Development Reform Act, we agree that Congress did not intend to impose a
     salary cap on 8(a) participants and we have revised our final recommendation
     accordingly. However, in our opinion, it was the intent of Congress for SBA to
     annually evaluate whether an 8(a) firm and its owners remain economically
     disadvantaged. "An unusually large amount of funds withdrawn from the firm by
     its owners" was ofle of the reasons given by Congress for believing that an 8(a)
     firm and its owners were no longer economically disadvantaged. The two

o
   remaining reasons given were "demonstrated access of the firm and/or its owners
     to a substantial new source of capital or loans" and "unusually high personal net
     worth of such owners." While it appears our concerns may be addressed in the
     new procedures being contemplated by the Associate Administrator, we believe
     guidelines should be established to take into consideration unusually high salaries

                                               a
when determining whether an individual is considered economically disadvantaged
regardless if the salaries are detrimental to the firm or not.


Finding 3 	          8(a) Concerns Larger And More Profitable Than Non-8(a)Concerns
                     Are still Receiving 8(a) Ass~tance

     Some firms were allowed to remain in the 8(a) program even though the
financial condition of the firms was significantly stronger than similar firms not in
the program. This condition existed because continuing eligibility reviews of 8(a)
concerns did not include comparisons to other concerns in the same or similar lines
of businesses that were not owned and controlled by socially and economically
disadvantaged individuals. Consequently, other truly economically disadvantaged
individuals were deprived of 8(a) assistance and individuals were allowed to remain
in the 8(a) program even though the strong financial condition of their firms no
longer made them economically disadvantaged. In addition, the overall success of
the 8(a) program is understated when firms that have demonstrated success are
not graduated.

    Title 13 CFR § 124.106, requires SBA to compare each 8(a) concern's
business and financial profile with profiles of businesses in the same or similar line
of businesses which are not owned and controlled by socially and economically
disadvantaged individuals when determining economic disadvantage for 8(a)
program continuing eligibility. At a minimum, the comparison should include
business assets, revenues, pre-tax profit, working capital, and net worth of the
concern.

      AlthOl~ghwe found the financial condition of 8(a) firms was analyzed in our
review of 50 continuing eligibility assessments, comparisons were not made to
similar concerns not in the 8(a) program. We compared the most recent financial
data available for each of the 50 8(a) firms to other concerns with the same ,
predominanr Standard Industrial Classification (SIC) codes and found the 8(a)
firms to be larger and more profitable in most cases. Our analysis was based on
five ke,y industry averages obtained from Dun and Bradstreet. The results of our
comparison are shown below.




   2Predornlnant SIC code used for each concern w~s the SIC code under which the concern received rnost of Its 8(a)
revenues.


                                                           10
o

                                   Firms Exceeding                Number of Times Industry Average
     Category                     Industry Average                   Range                Average

     Business Assets                          48                    1.1    .: 61.7                         11.6
     Revenue                                  49                    1.3    -159.2                          17.1
     Gross Profit3                            42                    1.3    - 35.4                           6.1
     Working Capital                          42                    1.1    - 82.2                          10.7
     Net Worth                                42                    1.2    - 55.6                            7.4

     All five industry averages were exceeded by 32 of the 50 firms in our review.

          Our audit disclosed that some 8(a) concerns had dramatically improved their
     capital and credit position and had grown to the point that they were larger and
     more profitable than other firms in the SIC code from which they received most of
     their revenues. For example:

o           •	      One concern substantially exceeded all five of the industry averages
                    showl"!· above. The concern's business assets of $12.5 million and
                    revenues of $45.9 million were more than' 60 times the industry average
                    for its primary SIC code. The concern's gross profit of $11.8 million and
                    working capital of $3.6 million also exceeded the industry average by 35
                    times and 48 times, respectively. In addition, the concern's net worth of
                    $5 million was over 4 times the industry average.

            •	      Another concern exceeded all five of the industry averages by more than
                    1 5 times. The concern's business assets of $11.9 million and gross
                    profit of $14.6 million were more than 30 times the industry average.
                    The concern's net worth of $2.7 million and working capital of $2.1
                    million were 15.6 times the industry average. Also, the concern's
                    revenues of $40.7 million were 23.9 times the industry average.

            •	      Another concern exceeded all five of the industry averages by at least 4 :5
                    times. In addition, the firm's net profit after tax of $8,543,753 was 105
                    times the industry average of $81,435 and its profit margin of 35 percent
                    was 17 times the industry average.

         We believe firms should be graduated from the 8(a) program when their

o    financial condition is substantially better than firms not in the program. SBA
     implemented a new management information system in late November 1993 that
     contains the industry financial data needed to make comparisons of 8(a) firms to


       3   Industry averages for gross.profit were used in rteU of pre-tax profit which were not always available.

                                                                     1 1
similar firms not in the 8(a) program. However, as of the time of our review, SBA
had not established procedures and standards for making the comparisons. By
establishing procedures and standards for making business financial condition
                                                                                       0
comparisons, SBA will be able to identify 8(a) participants that should no longer be
considered economically disadvantaged based on the financial condition of their
firms.

Recommendation

    3A. 	 We recommend the Associate Administrator for Minority 

          Enterprise Development establish procedures and standards for 

          comparing the financial condition of 8(a) firms to similar firms 

          not in the program to identify participants that should be 

          graduated from the 8(a) program because they are no longer 

          economically disadvantaged. 


SBA 	M anagement's Response

     The' Associate Administrator for Minority Enterprise Development provided the
following comment:

    "We agree and will implement procedures for use of analytical software for
    financial review. "


Evaluation of Management Response

    Actions planned by the Associate Administrator for Minority Enterprise are
responsive to the recommendation.


Finding 4 	   Exclusions From Personal Net Worth Calculations Disguise Economic
              Success

     Individuals were considered economically dis'a dvantaged and allowed to
continue in the 8(a) program even though they had accumulated substantial wealth
individually or jointly with their spouses. This occurred because SBA had not
established procedures for determining when 8(a) participants should no longer be
considered economically disadvantaged based on the equity in their 8(a) firms and
primary residences and the net worth of the participants' spouses. Permitting
wealthy individuals to remain in the 8(a) program is contrary to the goals of the
program, reduces the opportunities available to those who are disadvantaged and
undermines public support for the program.



                                         12 

o

          SBA is required to formulate policies relating to 8(a) program eligibility by
     Section 7(j)(11 )(A) of the Small Business Act. Section 8(a)(6)(E) states that
     whenever SBA calculates the personal net worth of an individual claiming
     disadvantaged status for purposes of the 8(a) program, the individual's ownership
     interest in the 8(a) concern and equity in his or her personal residence not
     attributable to excessive withdrawals from the concern will be excluded from the
     calculation. The implementing regulation, 13 CFR § 124.111 (a), establishes
     personal net worth limits of $500,000 and $750,000 for maintaining 8(a) eligibility
     in the developmental and transitional phases, respectively.

                                      Eguitv of 8(a) firms

          Thirteen of the 50 8(a) participants claimed they met the criteria for claiming
     economic disadvantage even though they were considered millionaires based solely
     on their 8(a) firms' business equity. Congress included the business equity
     exclusion from the net worth calculation as an incentive for 8(a) participants to
     retain sufficient capital in the 8(a) firms to cover future business needs. However,

o
   this exclusion, if left unlimited, acts as a "safe-haven" from the net worth limit for
     large amounts of money or other assets accumulated by the 8(a} participant.

          Ownership interest in the 8(a) firms excluded from the determination of the
     individuals' personal net worth ranged from $70,460 to $9 million as noted in the
     following chart.

         Ownership Interest In 8(a) Firm             Number Of Individuals

         $1,000,000 to $9,000,000                              13
         $ 750,000 to $ 999,999                                  6
         $ 500,000 to $ 749,999                                  9
         $ 70,460 to $ 499,999                                 20
         Negative business equity                                2

     If the individuals' ownership interest in their" 8(a) firms was not excluded, 29 of the
     50 would exceed the personal net worth limits for claiming economic disadvantage
     status. For example, one participant had a personal net worth of $509,343 after
     excluding the equity in his 8(a) firm and primary residence. At the time of our
     review, the 8(a) firm's net worth of $4,109,448 was over 18 times the industry
     average of $182,369. As all of the firm's net worth was excluded from the

o
   computation of the participant's personal net worth, he was allowed to remain in
     the program.




                                               1')
                                             Primary residences

     Congress included the personal residence exclusion from the net worth                                    o
calculation because of the belief that rapidly escalating real estate values and the
wide disparity of real estate prices around the country may lead to inequitable
treatment of home-owners in some areas. However, this exclusion, if left
unlimited, acts as a "safe-haven" or loophole from the net worth limit for large
amounts of money accumulated by the 8(a) participant. We believe the unlimited
personal residence exclusion undermines the intent of the program as it allows
wealthy individuals to remain in the 8(a)' program. In addition, when 8(a) owners
upgrade to more expensive homes, the amount of capital available to their 8(a)
firms is reduced. Consequently, guidelines need to be established to close this
loophole.

     Home equity excluded from the personal net worth determinations of the 50
8(a) participants in our review ranged from $21,000 to $517,000 as shown in the
following table.

                                                                         Number Of 

          Home Equity                                                    Individuals 


    $250,000 to $'517,000                                                     9

    $125,000 to $249,999                                                     12 

    $ 21,000 to $124,999                                                     29 


Had home equity been considered in the determination of the individuals' personal
net worth, 8 of the' 50 would have exceeded the limits for Claiming economic
disadvantage.

    We found that 43 of the 50 8(a) participants in our review lived in homes that
had market values greater than the $121,500 national median sales price of new
privately owned one-family homes sold in 1992. 4 Primary residence market values
ranged from $45,000 to $1.4 million as shown below.

    Primary Residence Market Value                                 Number Of Individuals

    $800,000       to   $1.4 million                                            5

    $400,000       to   $799,999                                              10 

    $200,000       to   $399,999                                              17 

    $125,000       to   $199,999                                              11 

    $ 45,000       to   $124,999                                                7




      4   Source: U,S. Bureau of the Census, Statistical Abstract of the United States: 1993 111 ~ edition)


                                                         14
o

         We also found that it was not uncommon for 8(a) participants to move into
     higher priced homes after they entered the 8(a) program. For example, one
     participant was livjng in a home with a market value of $250,000 (original cost ­
     $140,000) at the time he was approved for the 8(a) program. However, at the
     time of our review, the participant and his wife had moved into a house (Figure 1)
     with an assessed value of $1.4 million (original cost $980,000). The equity in the
     house exceeded $470,000.




o




                                          Figure 1


          In another example, a participant when approved for the 8(a) program was
     living in a home with a market value of $120,000 (original cost $117,000) with a
     mortgage"of $98,000. At the time of our review, the participant had purchased a
     home with an assessed value of $517,000 (market value unknown) (Figure 2) and
     had recently paid off the mortgage. The mortgage was approximate"ly $333,000

o    at the time it was paid off.
                                      Figure 2


                               Net worth of spouses

     Assessing economic disadvantage on an individual basis allows individuals to
remain eligible for the 8(a) program even though they have accumulated substantial
wealth jointly with their spouses. Married 8(a) participants not living in community
property states are considered to be economically disadvantaged if their individual
net worth is below the thresholds set by SBA regardless of the amount of their
spouses' net worth. Participants.living in community property states are limited to
a joint net worth with their spouses of $1 million in the developmental stage and
$1 .5 million in the transitional stage of the program. Personal net worth of
spouses excluded from the personal net worth determinations of the 50 8(a)
participants in our review ranged from $2,200 to $771,874 after deducting the
spouses' equity in the 8(a) firms and their primary residences. If the net worth of
the individuals' spouses was not excluded, 10 of the 50 would exceed the
personal net worth limits for claiming economic disadvantage.

                        Joint net worth without exclusions

    With no exclusions, the joint personal net worth of the 50 8(a) participants in
our review ranged from < $1 .2> million to $11.7 million. Millionaire status had
been achieved individually, or jointly if married, by 35 of the 8(a) participants as
shown below.



                                         16
o

               Personal Net Worth 	                          Number

         $1 million to $11.7 million                           35
         $750,000 to $999,999                                   2
         $500,000 to $749,999                                   7
         $0 to $499,999                                         4
         < $1.2> million to $0                                  2

                                       Legislative Historv

          In our opinion, it was not the intent of Congress to eliminate 8(a) participants'
     equity in their 8(a) firms and personal residences in a carte blanche manner. We
     recognize Congress enacted legislation excluding 8(a) participants' ownership
     interests in their 8(a) firms from their personal net worth to ensure 8(a) firms
     accumulate sufficient capital to cover future business needs. In addition,
     legislation excluding 8(a) participants' equity in their primary personal residence
     was enacted because of the belief that rapidly escalating real estate values and the

o
   wide disparity of real estate prices around the country may lead to inequitable
     treatment of home-owners in some areas. However, as evidenced in House
     Conference Report 100-1070, Congress also directed SBA to take appropriate
     steps to ensure that these exclusions were not subject to abuse. Although the
     value of business assets and primary personal residences are not to be considered
     as an element of personal net worth, Cg.ngress anticipated that SBA would
     consider whether such business assets and residences give individuals access to
     capital or loans such that he or she not be considered impaired in his or her ability
     to compete.

          We also believe that the personal net worth of spouses should be considered
     in determining whether 8(a) participants continue to be economically
     disadvantaged. Unless consideration is given to all components of net worth,
     economically disadvantaged individuals will have reduced 8(a) program
     opportunities because individuals that have overcome their economic disadvantage
     will still be able to receive 8(a) assistance. Also, SBA could receive adverse
     publicity thereby undermining public support for the program.

     Recommendation

         4A. 	 We recommend that the Associate Administrator for Minority
               Enterprise Development establish procedures for determining

o
             whether 8(a) participants should no longer be considered
               economically disadvantaged based on their ownership interest in
               their 8(a) firms, the equity and market value of their primary
               residences, and the net worth of their spouses.


                                               1"7
SBA 	M anagement's Response

     The Associate Administrator for Minority Enterprise Development provided the
following comment:

    "The current statute precludes SBA from including the equity of the business
    and personal residence in determining a participants per~onal net worth. We
    believe that while an individual's personal net worth may be below the
    applicable threshold, it does not preclude SBA from making a determination
    that the firm is no longer economically disadvantaged. If it is determined that
    the firm has the ability to compete and access to capital, SBA may graduate
    the firm. We plan to reemphasize this to the field offices. "

Evalyation of Management Response

     We believe SBA may have some flexibility under the current law. However, if
SBA determines that the flexibility is not sufficient, SBA should seek legislative
authority to close any loopholes. Although reemphasizing this fact to the field
offices should be beneficial, we believe that abuses such as those described in the
finding will continue unless specific guidelines addressing the equity and market
value of primary residences, and the net worth of spouse~ are established.


Finding 5        Other Observations

     We also found other conditions that could negatively impact 8(a) program
continuing elig.ibility reviews during our audit. Improvements are needed in these
areas to help ensure that firms no longer eligible for the 8(a) program are graduated
or terminated. Details of our observations are shown below.

Financial Statements

     Annual financial statements for 8(a) firms were not always submitted or
prepared in accordance with 8(a) program regulations. This resulted because
Business Opportunity Specialists did not fully understand the purpose of annual
financial statements and they had too many other duties to perform to devote
sufficient time to annual financial statements. Consequently, it was not always
possible for Business Opportunity Specialists to adequately assess thlt 1inIIWl. ­
condition and competitive mix of 8(a) firms.

    We found the following for the 50 8(a) firms in our review:

    •	      Three firms did not submit financial statements that were required to be
            audited or reviewed by an independent public accountant.


                                           18
o

         •	   Financial statements for 32 of the firms did not contain a breakdown of
              8(a) and non-8(a) sales.

         •	   The independent public accountants for two of the firms did not express
              an opinion on the firms' financial statements because of scope limitations.

         •	   One firm submitted audited financial statements that were not prepared in
              accordance with generally accepted accounting principles.

     In all but two cases, the BOSs accepted the financial statements as submitted.
     The two exceptions involved firms that did not submit audited financial
     statements.

     Personal Financial Statements

          The personal financial statement form that 8(a) participants are required to use
     to report their personal net worth is not structured in a manner that simplifies

o
   economic disadvantage determinations. SBA Form 413 "Personal Financial
     Statement" is used for all SBA programs. While it is adequate to calculate
     personal net worth for the purpose of obtaining or guaranteeing a loan, it is not
     structured to calculate adjusted net worth for 8(a) program eligibility purposes.
     Specifically, the form is not set up to exclude the 8(a) participants' ownership
     interest in their 8(a) firms and the equity in their primary residences to arrive at
     their adjusted personal net worth. Consequently, we found many instances in
     which Business Opportunity Specialists incorrectly calculated the adjusted net
     worth of 8(a) participants.

          In addition, SBA's 8(a) Handbook currently instructs 8(a) participants to
     disregard the certification regarding the accuracy of statements made on SBA Form
     413. As a result, it may be difficult to hold 8(a) participants accountable for
     making false statements regarding their personal net worth. SBA is presently in
     the process of removing the instr~ction that directed participants to disregard the
     certification and is also considering modification of SBA Form 413 consistent with
     the needs of the 8(a) program.

     Incompatible Data

         Data used to conduct 8(a) program continuing eligibility reviews was not
     always compatible and timely. This condition resulted because the program year

o
   of many of the firms in the 8(a) program is different than the firm's fiscal year and
     the owner's personal tax year. Section 7(j)(15) of the Small Business Act
     established a nine year program participation term for receiving 8(a) assistance.
     The first program year begins on the date that a firm is certified to participate in
     the program and ends one year later. Audited financial statements are not due

                                               10
until 180 days after the firms' fiscal year end in accordance with 13 CFR §
124.209. In addition, many 8(a) program participants receive extensions to file
their business and personal tax returns.

     We found the program years were different from the firms' fiscal years and the
owners' personal tax years for 38 of the 50 8(a) firms in our review. We also
found instances in which business and personal tax returns were filed 9 months
after the tax years ended and audited finanCial statements were filed 176 days
after the firm's fiscal year end. As a result, continuing eligibility determinations
were made more complex and time consuming because of incompatible and
outdated data. Also, 8(a) participants that have overcome their economic
disadvantage may be allowed to remain in the 8(a) program.

     We found SBA was in the process of developing proposed changes to the 8(a)
program at the time of our review. One of the proposed changes would require
8(a) firms to annually report their competitive business mix based on their fiscal
year. However, this proposed change was not implemented as of the date of our
review.

Ownership Interests In Other 8(a) Firms

     Firms participating in the 8(a) program may hold up to a 10 percent equity
ownership interest in other firms in accordance with 13 CFR § 124.103. Also,
individuals affiliated with 8(a} firms as partners, stockholders, officers, or directors
may hold up to a 10 percent equity ownership interest in other 8(a} firms.
Consequently, 8(a} firms through their owners, spouses and managers can exercise
significant control over other 8(a} firms by acquiring up to a 49 percent interest in
the other 8(a} firms. As an example, 1 of the 50 firms in our review acquired a 40
percent interest in another 8(a} firm as shown below.

        Affiliated
    Individual Acquiring
     Ownership Interest                               Percentage

    Disadvantaged owner                                   10
    Disadvantaged owner's spouse                          10
    Non-disadvantaged owner                               10
    Non-disadvantaged owner's spouse                           6
    Key manager #1                                             2
    Key manager #2                                        ~

         Total                                             40
                                                           =




                                          20 

o

          In addition, 8(a) firms can subcontract with the other 8(a) firms to work on
     8(a) contracts in those cases where they have outgrown the Standard Industrial
     Classification (SIC) code. These subcontracts are reported as non-8(a) business
     thereby improving their competitive mix. For example, the firm that acquired the
     40 percent interest in another 8(a) firm was similar in nature as it had 11 matching
     SIC codes. However, even though the 8(a) firm in our review had outgrown four
     of its SIC codes, it continued to work on follow-on contracts with agencies that it
     had previous 8(a) contracts as a subcontractor for the 8(a) firm in which it had
     acquired the 40 percent interest. In addition, the work performed as a
     subcontractor was considered non-8(a) sales for competitive lTlix purposes.

     Recommendations

        We recC?mmend the Associate Administrator for Minority Enterprise
     Development:

         5A. 	 instruct SBA district offices to place increased emphasis on 8(a) .
               program participants' submission and preparation of financial
0              statements.

         5B. 	 develop a standard form for reporting the adjusted personal net
               worth of 8(a) participants.

         5C. 	 realign 8(a) firms' program years with their fiscal years and the
               tax years of the disadvantaged ow~ers.

         50. 	 require 8(a) firms to submit annual financial statements (audited,
               reviewed, or compiled) within 90-days of their fiscal year end.

         5E.   require that disadvantaged owners and firms participating in the
               8(a) program submit their personal and business tax returns to
               SBA by the 15th day of the 4th month after the respective tax
               year ends.

         5F.   require that disadvantaged owners' firms participating in the 8(a)
               program and associates of the owner(s} or firm be limited in
               their equity ownership interests in other 8(a) firms of no more
               than a combined 10 percent.

         5G. 	 require that revenue earned from subcontracting on
0              noncompetitive 8(a} contracts be classified as 8(a) revenue.
SBA 	M anagement's Response

     The Associate Administrator for Minority Enterprise Development provided the
following comments:

    5A. 	 "We agree. "

    5B. 	 "We agree and it will be part of the annual review form. "

    5C.   "We agree and have submitted this proposal as part of our legislative
          package. "

    50. 	 "MED previously increased the $2.5 million threshold to $5.0 million.
          Consistent with previous agreement with your office we will require firms
          with revenues exceeding $5.0 million to submit audited financial
         statements within 120 days of their fiscal year end. "

    5E. 	 "We do not agree that participants should waive their rights. However,
          we will require timely submission of personal and firm financial
          statements and will ensure that information is analyzed as part of the
          annual review. "

    5F. 	 "We agree and have addressed this issue in our proposed regulations. "

    5G. 	 "We do not agree because we feel it would discourage 8(a) companies
          from subcontracting to other 8(a) companies. The classification of work
          as 8(a) does not flow down to second tier subcontractors since there is
         no privity of contract between the U. S. Government and the second tier
         subcontractor. "

Evaluation of Management Responses

    Actions planned by the Associate Administrator· for Minority Enterprise are
responsive to recommendations 5A, 5B, 5C and 5F.

     50. The Associate Administrator for Minority Enterprise is correct in stating
that we previously agreed that B(a} firms should be required to submit audited
financial statements within 120 days of their fiscal year end when their revenues
exceed $5 million. However, that agreement was made without the benefit of the
information disclosed during our audit. Based on the results of our audit, we
consider 90 days and $2.5 million to be more appropriate. We believe that 90
days is ample time for the submission of audited, reviewed or compiled financial
statements. Besides improving the compatibility of data available for annual


                                         22
o

     reviews, the 90 day requirement will make the 8(a) program consistent with other
     SBA programs.

           5E. We agree that 8(a) participants should not be required to waive their right
     to file an extension on their tax returns. However, we do not believe that it is
     unreasonable for individuals benefiting from the 8(a) program to provide completed
     tax returns within agreed upon deadlines. Therefore, as an alternative, we suggest
     8(a) participants should be required to submit their tax returns (as well as other
     required information) within the established time frames (75 to 105 days after tax
     year end) or suspend 8(a) assistance for those 8(a) participants who choose not to
     submit the required information within established deadlines. Without extensions,
     business and personal tax returns are due on the 15th day of the 3rd and 4th
     month after the tax year ends, respectively. In our opinion, these time frames are
     reasonable for 8(a) participants to submit tax returns. As a result, the annual
     review process will be simplified and strengthened.

          5G. We disagree that 8(a) companies would be discouraged from

o    subcontracting to other 8(a) companies if revenue earned from subcontracting on
     noncompetitive 8(a) contracts is classified as 8(a) revenue. While we have no
     objection to 8(a) firms working as subcontractors on noncompetitive contracts in
     which the firms have outgrown the SIC code, we believe it would be appropriate to
     classify revenue earned from those contracts as 8(a) revenue. We agree that there
     is no privity of contract between the U! S. Government and second tier
     subcontractors, but fail to see why that would prevent SBA from classifying work
     performed as 8(a) revenue.




o

                                              23 

                                       AUDIT REPORT ON 

                                  8(a) PROGRAM CONTINUING 

                                      ELIGIBILITY REVIEWS 

                                     REPORT DISTRIBUTION 


Recipient                                                                                  No. of Copies 


Administrator . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 1 


Deputy Administrator . . . . . . . . . . . . . . . . . .       ~   . . . . . . . . . . . . . . . . . . . .. 1 


Office of General Counsel . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2 


Associate Administrator for Minority Enterprise Development                        . . . . . . . . . . . . 10 


Associate Deputy Administrator for Management and Administration . . . . . . ..                            1


Regional Administrator, Region III . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 1 


District Director, Richmond District Office . . . . . . . . . . . . . . . . . . . . . . . . . . 1 


District Director, Washington, D.C. District Office. . . . . . . . . . . . . . . . . . . ..                1


Regional Administrator, Region V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1 


District Director, Columbus District Office . . . . . . ~ . . . . . . . . . . . . . . . . . ..             1


Regional Administrator, Region VI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..           1


District Director, Albuquerque District Office . . . . . . . . . . . . . . . . . . . . . . . . 1 


Regional Administrator, Region IX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 1 


District Director, Los Angeles District Office . . . . . . . . . . . . . . . . . . . . . . . ..            1


Director, Office of Financial Controls . . . . . . . . . '. . . . . . . . . . . . . . . . . . . ..         1


Congressional and Legislative Affairs. . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 1 


Senate Committee on Small Business . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2 


House Committee on Small Business . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 2 


General Accounting Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 1 


                                                   24 

